                       United States Attorney Eric Melgren
                                 District of Kansas
FOR IMMEDIATE RELEASE                                 CONTACT: JIM CROSS
Dec. 31, 2007                                         PHONE: (316) 269-6481
http://www.usdoj.gov/usao/ks/press.htm                FAX: (316) 269-6420

       KANSAS COMPANY AGREES TO PAY $600,000
       TO SETTLE ALLEGATIONS OF FALSE CLAIMS
 UNDER DISADVANTAGED BUSINESS ENTERPRISE PROGRAM

      WICHITA, KAN. – A highway paving company in Topeka, Kan., has
agreed to pay $600,000 in a civil settlement to resolve allegations that it
made false claims under the federal Disadvantaged Business Enterprise
program, U.S. Attorney Eric Melgren announced Monday.

      Under the settlement, Koss Construction Company, Inc., and Koss
Materials Company, LLC, will pay $600,000. Three other companies also
entered into settlements. Carter-Waters Corporation of Kansas City, Mo.,
will pay $176,000. A.G.W. Steel, Inc., of Decartur, Ill., will pay $50,000
and Ideker, Inc., of St. Joseph, Mo., will pay $22,000. According to the
terms of the settlement, the companies do not admit wrongdoing.

     “The government contends that Koss and Idecker submitted claims to
the Kansas Department of Transportation and the U.S. Department of
Transportation falsely stating that they had met their obligations under the
Disadvantaged Business Enterprise Program by obtaining materials from
A.G.W. Steel,” Melgren said.

      In fact, Melgren said, Carter-Waters was the actual supplier on all the
contracts and A.G.W. Steel failed to provide a commercially useful function.




                                         1
      “Disadvantaged Business Enterprise fraud harms the integrity of the
DBE program and law-abiding prime contractors and DBEs by defeating
efforts to ensure a level playing field in which DBEs can compete fairly for
contracts,” said Michelle McVicker, special agent in charge, U.S.
Department-Office of Inspector General.

     Under the agreement, A.G.W. Steel, Inc., and its owners, Harvey and
Geneal Williams, agree to voluntarily withdraw from participation in the
Federal Highway Administration’s Disadvantaged Business Enterprise
Program for a period of three years.

      Contracts covered by the settlements include road construction on
segments of Interstate 70 in Shawnee County and Wabaunsee County, Kan.,
and a segment of Highway 69 in Miami County, Kan., and segments of
Interstate 35 in Franklin County and Miami County, Kan., all in 2002.

      Melgren commended the U.S. Department of Transportation -Office of
Inspector General, the Kansas Department of Transportation and Assistant
U.S. Attorney Richard Schodorf for their work on the case.

                                     ##




                                      2
